V

Supreme Court, U.S.
FILED

JUN 1 8 2018

No.

OFFICE OF THE CLERK

IN THE SUPREME COURT OF THE UNITED STATES
October Term 2018

In re Thomas F. Williams
Petitioner.

On Petition for an Original
Writ of Habeas Corpus

PETITION FOR WRIT OF HABEAS CORPUS

Thomas F. Williams #095608
Union Correctional Institution
P.O. Box 1000
Raiford, Florida 32083
Petitioner pro se

■ Page i of viii -

QUESTIONS PRESENTED
Question one:

Whether the federal district & circuit court and the

Florida State courts violated the Petitioner’s 6th & 14th Amendment rights—when
they failed to apply the plain language in Martinez v. Ryan. 566 U.S. 1, 132 S.Ct.
1309 (3/20/2012); Trevino v. Thaler. 569 U.S.

., 133 S.Ct. 1911 (5/28/2013), and

Edwards v. Carpenter. 529 U.S. 446, 120 S.Ct. 1587 (2000) to address the merits of
the Petitioner’s ineffective assistance of counsel claims and prosecutor & trial Court
issues for procedural default reasons which resulted in a miscarriage of justice?
Question two:

Whether

the

Petitioner’s

due

process

and

sixth

amendment rights were violated when the trial counsel, appellate counsel and the
court failed to apply the standards for bias jury members found in Smith v. Phillins.
455 U.S. 209, 102 S.Ct. 940 (1982); Remmer v. U.S.. 350 U.S. 377, 76 S.Ct. 425
(1956); U.S. v. Wood. 299 U.S. 123 (1937)?
Question three:

Whether the trial judge violated Petitioner’s constitutional

rights by enhancing the sentence beyond the signed scoresheet sentence (20 years,
App. 19) for all nine charges and by overstepping his authority by disallowing the
jury to be involved or to consider the recommended scoresheet causing Petitioner’s
right of trial by jury to be denied?
Question four:

Whether the trial judge violated Petitioner’s rights when

he established a rule (R. 91, App. 98-99) that disallowed defense counsel from
inquiring the accusers on cross-exam in order to show one of the accusers was the
- Page ii of viii -

person committing the acts charged against the innocent Petitioner?
Question five:

Whether the Petitioner’s rights were violated by the state

and federal courts by not rendering a complete decision on the merits of each claim?
Question six:

Whether the State of Florida’s statutes governing sexual

battery can administer a capitol sentence of life with only a six person jury when a
murderer obtains the exact same sentence but with a twelve person jury, thus
violating the constitutional rights of the offender and rendering an illegal
conviction?
Question seven:

Whether a conviction can be upheld with only the accusers

claiming an offense when others were present and testified they did not see any
offense and where there is no factual evidence existing beyond the allegation and
where there’s no eye witnesses, and no admittance by the petitioner thus resulting
in malicious prosecution, an miscarriage of justice?
PARTIES TO THIS PROCEEDING
The parties to this proceeding are as follows:
1.

Mark S. Inch, Secretary of the Department of Corrections.

2.

Ashley Moody, Attorney General of the State of Florida.

3.

Thomas F. Williams, the Petitioner.

■ Page iii of viii -

QUESTIONS PRESENTED

n-in

PARTIES TO THIS PROCEEDING

m

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES
INDEX TO APPENDIX

vvi
virvm

ORDERS BELOW

1

BASIS FOR JURISDICTION IN THIS COURT

2

PROCEDURAL HISTORY
GROUNDS

2-11
11

CONCLUSION

--38

WORD COUNT

38

PROOF OF SERVICE

39-40

TABLE OF CITED AUTHORITIES
FEDERAL CASES:
Edwards v. Carpenter..................................
529 U.S. 446, 120 S.Ct. 1587 (2000)
Fancios v Klein........................
431 So.2d 165 (Fla. 1983)

li

4, 12

Herrera v. Collins.............
506 U.S. 390 (1993)

36

Martinez v. Ryan.
566 U.S. 1, 132 S.Ct. 1309 (3/20/2012)
Richardson v. State.
246 So. 2d 771 (Fla. 1971)

ii, 1, 2, 4, 7, 8, 12
13

Remmer v. U.S..
350 U.S. 377

ii

Smith v. Phillips................
455 U.S. 209 (1982)

ii

Trevino v. Thaler.
569 U.S.___ , 133 S.Ct. 1911 (5/28/2013)

ii, 1, 7, 8, 12

U.S. v. Wood............
299 U.S. 123 (1937)

n

Williams.
8:l4cv-1275 T-33EAJ

1

Williams v. Dugger.........
88-1030-civ-T-17B

5

Williams v. Federico.

4

■ Page v of viii -

112 S.Ct 215 (1991) (Case Number: 91-5109)
Williams
Eleventh Circuit case number 14-13331‘F

12

Williams
U.S. S.Ct. case number 15:5179 (October 5, 2015)

16

FLORIDA STATE CASES:
Williams v. Federico......................................................................................
509 So.2d 1119 (Fla. 1987) (Fla. Supreme Court Case 70,105)

6

Williams v. State.............................
581 So.2d 1312 (Fla. 1991)

8

STATUTES & CODES:
§ 90.404(2)(c), Fla. Stat.

22

§ 90.612, Fla. Stat.

34

§ 794.011(4) (e) Fla. Stat.

4

RULES OF COURT:
7

3.850, Fla. R. Crim. P.
CONSTITUTIONS:

-20-56
ii, 20, 56

5th Amendment
6th Amendment

56

8th Amendments
14th Amendments

ii, 20, 56

- Page vi of viii -

INDEX TO APPENDIX
Pape No:
9/22/84

Letter to Judge Federico

1-2

2/5/87

Petition For Writ of Mandamus

3-5

1/30/87

Order from the Florida Supreme Court

4/10/87

Motion for Rehearing & Certiorari to
Florida Supreme Court........................

6/18/87

6

7-16

Order from Florida Supreme Court
denying rehearing..............................

17

10/24/84

Order by Judge Federico

18

3/20/86

Guideline score sheet

19

10/5/15

Order for United States Supreme Court
Clerk

20

1022/15

11/5/15

Motion For Clarification on 10/5/15
U.S. Order...........................................

21-26

Letter to U.S. Supreme Court Clerk
from Defendant....................................

27-28

11/17/15

Letter from U.S. Supreme Court Clerk

29

10/29/87

Order denying Defendants Motion for Postconviction Relief &
Rehearing..............................................................................................

30

1/22/88
2/25/90

Order from Second District Court Appeal dissmissing 3.850 appeal---31
Order denying Defendants Motion for Postconviction Relief32-33

6/22/90

Order denying Motion For Rehearing

- Page vii of viii -

34-35

6/28/02

Order dismissing in part Defendant's
Motion For Postconviction Relief motion

36-37

8/2/02

Order denying Motion For Rehearing

3/18/13

Petition to Invoke All Writs Jurisdiction to the Florida Supreme Court
39 61

7/22/13

Order from Florida Supreme Court
dismissing Petition to Invoke All Writs

7/30/12

8/14/12

9/12/12

9/18/84

38

62

Application for Leave to File a Second/Successive Petititon
28 U.S. C. 2244(B).........................................................................

63-80

Application for Leave to File a Second/Successive Petititon
28 U.S. C. 2244(B)........................................................................

81-87

Order denying Application for Leave to
File a Second/Successive Petititon
28 U.S. C. 2244(B).....................................

88-89

Trial transcript excerpts

t

- Page viii of viii -

93-209

ORDERS BELOW
The order of the United States District Court of the Southern District of
Florida pertaining to the issues herein Fed. R. Civ. P. Rule 60(b) (6) and Martinez
and Travino in which the Court denied Mr. Williams’ 2254 Habeas Petition (case:
8:i4-cv-1275’T-33EAJ) was entered on June 3, 2014, and is unreported. Accordingly,
citations to it and all subsequent orders and documents filed in a lower federal court
that are material to this Petition are by the docket numbers assigned to them by
the District Court, which are available on the Southern District of Florida’s internet
website and found in the Appendix at pages 90-92
The order of this Court dated October 5, 2015 which denied the Petitioner to
file a certiorari in forma pauperis due to a misinterpretation/misapplication of this
Court’s Rules 33.1 by the Clerk of this Court is found in the Appendix page 20.
The order of the Clerk of the U.S. Supreme court dated November 17, 2015
denied the Petitioner’s letter to Clerk and Motion for Clarification of October 5th
order that Rule 33.2 (pro se inmates apply, not Rule 33.1) is in the Appendix at page
29.
On January 7, 2019, the Petitioner sent an application to Justice Thomas to
be able to file the Petition on 8 Vi x 11” paper. This was returned by clerk without
action on January 15, 2019.

- Page 1 of 39-

STATEMENT OF THE BASIS FOR JURISDICTION IN THIS COURT
The Petitioner has exhausted his attempts in state and federal courts trying
numerous times to have his claims ruled upon on their merits. These exceptional
circumstances warrant this Honorable Court’s consideration of the claims herein.
Without this Court’s acceptance will deny his basic constitutional rights.
Petitioner respectfully requests that this Court exercise its original habeas
jurisdiction, appointing counsel if necessary, accepting a full review of the claims
and providing an evaluation of each on their merits.
The procedural history of this case and the most recent of the district &
circuit court opinions show not only that arguments were summarily denied on all
of Petitioner's 2254 proceedings based on the Court’s refusal to apply the Martinez
rule to resolve the merits of each ineffective assistance of counsel claims, but it also
denied Petitioner's authorization to appeal—due to no fault or lack of diligence on
the Petitioner’s part, adequate relief cannot now be obtained in any other form or
from any other court.
PROCEDURAL HISTORY
On June 20 and July 10, 1984, the Petitioner was charged with three counts
of sexual battery on a child under the age of 12 contrary to Florida Statute
794.011(2), four counts of sexual battery by exercising custodial authority contrary

■ Page 2 of 39-

to Florida Statute 794.011(4) (e), and two counts of lewd and lascivious acts in the
presents of a child under the age of fourteen contrary to Florida Statute 800.04.
Petitioner entered a plea of not guilty and he went to trial on September 18-20,
1984, before the Honorable Philip A. Frederico, Circuit Judge for the Sixth Circuit
in and for Pinellas County, Florida.
Two days after trial, Petitioner wrote Judge Federico (App. 1-2) claiming
ineffective assistance of counsel. The letter was sealed until sentencing but never
ruled upon or considered the claims but instead replaced counsel with a public
defender.
Petitioner convicted on all counts, was sentenced only by the judge as follows:
on each of the three sexual battery counts on a child under eleven, to three life
imprisonment with twenty-five years minimum mandatory; on each of the four
sexual batteries with custodial authority counts, to thirty years imprisonment for
each one; and on the two lewd and lascivious charges, to fifteen years imprisonment
on each count.
All sentences were run consecutive to each other amounting to 225 years with
seventy-five minimum mandatory. Please note, the signed scoresheet (App. 19) nor
the jury was allowed nor their opinions were considered regarding the sentence
thereby denying a fair trial by jury. Petitioner timely filed his notice of appeal.
On January 29, 1986, the Florida Second District held the trial court erred in

- Page 3 of 39-

departing from the guidelines regarding counts IV, V and VI of the information. The
trial court reapplied the same sentence without a jury and without consideration of
the scoresheet (20 years for all charges). (App. 19).
On August 11, 1986 Petitioner appealed his resentencing to the Second
District Court of Appeals. The Second District per curiam affirmed the judgment
and sentence on December 19, 1986.
On February 9, 1987, Petitioner filed a writ of mandamus (App. 3-5) against
the trial judge for the illegal sentence with the Supreme Court of Florida, Williams
v. Federico. 509 So.2d 1119 (case 70,105) (Fla. 1987) (App. 17). This writ was
dismissed as was the motion for rehearing without ruling on the merits. The
Petitioner then filed a writ of certiorari to the United States Supreme Court which
was denied for want of jurisdiction.
While a petition in the Florida Supreme Court was still pending, on May 28,
1987, Petitioner filed his first Motion for Postconviction Relief pursuant to Rule
3.850, which was returned for being unsworn. Petitioner filed a properly sworn
statement and the court denied claiming Fancios v Klein. 431 So.2d 165 (Fla. 1983),
stating all issues were presented in the petition for writ of mandamus in the Florida
Supreme Court (which was not true) and the circuit court was without jurisdiction.
The Second District Court affirmed. (See App.30).
On July 12, 1988, Petitioner sought habeas relief from the U.S. Middle

- Page 4 of 39-

District of Florida (Williams v. Dugger. 88-1030-civ-T-17B). Magistrate Thomas F.
Wilson dismissed the petition without prejudice because the State argued the issues
had not been exhausted.
Petitioner then filed his second Motion for Postconviction Relief claiming all
issues contained herein. On February 20, 1990 the motion was denied stating ‘all
grounds could have and should have been raised on direct”. On March 6, 1990, a
motion for rehearing with supplement was filed. The rehearing was denied and the
Second District Court of Appeals per curiam affirmed without ruling on the merits.
(App.34-35)
On December 12, 1990, Petitioner filed a petition for writ of habeas corpus in
the Florida Supreme Court containing all the issues herein. The Florida Supreme
Court denied the writ without ruling on the merits on May 8, 1991, case 77,307 581
So.2d 1312. The Rehearing was also denied. Petitioner filed a writ of certiorari to
the United States Supreme Court (case 91-5109) which was denied on October 7,
1991. 112 S.Ct. 215 (1991).
Please note, up until this point the State had not provided counsel for any of
the filings that challenged this conviction, denying the right to counsel.
Petitioner filed a second federal habeas corpus on January 31, 1992. Matthew
L. Evans, Esquire, was appointed as the attorney to assist the Petitioner on May 22,
1992. Case: 92-134-CIV-T.

- Page 5 of 39-

Mr. Evans’ amended the habeas corpus petition which denied the Petitioner
to a full review of all of the issues contained in the pro se petition because the
grounds relating to Petitioner’s trial counsel, prosecutor misconduct, trial court
error and illegal sentencing statutes were all omitted by Mr. Evan’s without any
waiver or consideration from the Petitioner.
As a result of Mr. Evans’ amended habeas not being complete, on November
20,

1992,

Magistrate

Judge

Charles

R.

Wilson

entered

his

Report

&

Recommendation that the petition for habeas corpus action be denied. On December
3, 1992, Petitioner objected to the findings of the Report & Recommendation
explaining Mr. Evans’ omissions. Never-the-less U.S. Judge Harvey Schlesinger
adopted the Report & Recommendation on January 12, 1993 after a de novo review.
There was no ruling on the merits of the pro se habeas corpus.
Petitioner wrote the Eleventh Circuit Court of Appeals again explaining the
omitted claims. The Eleventh Circuit Court of Appeals per curiam affirmed in an
unpublished opinion and stated Petitioner was represented by counsel and the
' issues could not be heard. Thereafter, the Petitioner through Mr. Evens filed a
petition for writ of certiorari in the United States Supreme Court which was denied
on May 23, 1994.
Petitioner then filed a pro se petition for extraordinary writ in the Eleventh
Circuit Court of Appeals on May 17, 1995 claiming ineffective assistance of counsel

- Page 6 of 39-

and conspiracy of Mr. Evans for omitting crucial and fundamental errors caused by
the Petitioner’s trial counsel, prosecutor’s misconduct, trail court error & illegal
statutes and sentence. The Petition to proceed in forma pauperis was denied on
June 23, 1995.
On December 9, 2010, Petitioner retained counsel Cary Rada who filed a
petition for writ of habeas corpus in Pinellas County and on May 3, 2011 the writ
was denied. A notice of appeal was filed to the Second District Court of Appeals and
the appeal was denied by per curiam affirmance May 4, 2012.
On July 25, 2012, Mr. Rada, applied to the 11th Circuit Court of Appeal for
leave to file a successive federal habeas corpus and was denied. Then on March 18th,
2013, (App. 39-61). Mr. Rada filed a Petition for All Writs in the Florida Supreme
Court which was dismissed on July 22, 2013. (App. 62).
Within the time allowed for after the Trevino case, on May 27, 2014, a federal
habeas corpus was filed pro se in the Tampa District Court claiming Martinez v.
Rvan. 132 S.Ct. 1309, 566 U.S. 1 (2012) and Trevino v. Thaler 133 S.Ct. 1911, 569
U.S.

(5/28/2013), and Fed. R. Civ. P. Rule 60(b)(6) and was given case number

8D4-cv-01275-T'33EAJ. On June 3, 2014, the Court dismissed the habeas corpus
without prejudice as successive and ordered the Petitioner to pay $505.00 to appeal.
June 30, 2014, a motion for rehearing including a Rule 60(b) motion was filed
in the district court arguing that the Court had justification to entertain the habeas

- Page 7 of 39-

per Martinez & Trevino. July 7, 2014, the rehearing was denied without prejudice.
July 24, 2014, a notice of appeal was filed. (July 21, 2014, the $505.00 filing fee was
paid; Eleventh Circuit case number 14-1333TF). The appeal was denied on
December 12, 2014 without reaching the merits. On December 30, 2014, a motion
for panel rehearing was filed and denied on March 25, 2015, again, without
reaching the merits.
June 17, 2015, the Petitioner filed a writ of certiorari with the United States
Supreme Court and was assigned case number 15:5179. October 5, 2015, the
Petitioner was denied forma pauperis status and this Court issued an order that
Petitioner could not file the Writ of Certiorari concerning his criminal case on 81/2”
x 11” paper per rule 33.2. Instead he was ordered to file the Writ of Certiorari
concerning his criminal case in booklet format as required by rule 33.1 & pay the
filing fee of $300.00.
October 28, 2015, the Petitioner filed a motion for clarification explaining
that the pro se Petitioner could not produce the certiorari in booklet format. This
motion was returned citing the October 5, 2015 order as the reason for that return!
the clerk refusing to follow rule 33.2 for inmates without counsel.
June 27, 2016, the Petitioner filed a motion for permission to file a certiorari
pursuant to Rule 33.2 to Justice Clarence Thomas. The entire package was returned
again citing the October 5, 2015 order.

■ Page 8 of 39-

Because the Petitioner was unable to create the Petition for Certiorari in
booklet format and because case 15-5179 was closed, on or about April 19, 2018, the
Petitioner again tried to file an Original Jurisdiction Habeas Corpus concerning his
criminal case with the Clerk of Court, April 24, 2018, was sent back for not being in
booklet format citing order dated 10/5/2015.
On or about May 15, 2018, the Petitioner again tried to submit the Original
Habeas Corpus. June 6, 2018, it was sent back citing order dated 10/5/2015.
i.

August 14, 2018, the Petitioner sent the Original Habeas Corpus including a
$300.00 check. August 14, 2018, it was sent back citing order dated 10/5/2015.
May 7, 2018 & June 8, 2018, Petitioner tried to resolve the issue through the
case analyst of this Court explaining that booklet format is not provided by the
Department of Corrections.
August 20, 2018, Petitioner spoke to Mr. Yonn, Librarian at Union
Correctional Institution, about saddle stitch to meet the October 5, 2015 order. Mr.
Yonn stated^
"the library does not have that service. The providing of a
publisher is also not allowed”
September 20, 2018, the Petitioner sent a letter to Justice Clarence Thomas
pleading for help. At the time of this writing, an answer has not been given.
November 28, 2018, the Clerk of this Court responded to the Petitioner that

- Page 9 of 39-

he could not re-open case number 15-5179 to revisit the 10/5/2015 order.
The Petitioner has no other court now to turn to in order to finally get a
proper review on the merits of his case in a habeas corpus petition. The Petitioner is
simply trying to exercize his rights to get his Habeas Corpus Petition, containing
criminal matters, before this Court.
Due to bad advice from inmate law clerks and paid attorney prior to 2015 the
Petitioner had filed a few Petitions for Writ of Certiorari, causing the order to be
issued in case number 15-5179.
The Petitioner tried several times to explain to the Clerk that he cannot
create booklet format petitions without any resolution. The Petitioner's Family has
called the Clerk to obtain the name & address of an official printer but was denied.
The Petitioner understands the burden imposed by the Court pertaining to
case number 15-5179, for a Petition for Writ of Certiorari but he cannot understand'
why an Original Jurisdiction Petition For Writ of Habeas Corpus that contains
criminal issues resulting in manifest injustice is also being held to the requirements
of the October 5, 2015 order?
According to the United States Constitution concerning the Great Writ of
Habeas Corpus, it states in Article I, Section 9, of the United States Constitution
that:
“...The privilege of the writ of Habeas Corpus [SHALL

- Page 10 of 39-

NOT BE SUSPENDED], unless when in Cases of
Rebellion or Invasion the public Safety may require it....”
January 7, 2019, the Petitioner sent an application to Justice Thomas to
waive the October 5, 2015 order allowing the Petitioner to file on 8 Vi x 11” paper
instead of booklet format. This was returned by Clerk without action citing the
October 5, 2015 order on January 15, 2019.
For more than three years Petitioner has tried to obtain a printing company
to produce booklets resulting in the Peitioner doing it be hand..
This is a final attempt to have the issues and errors that violated the
Petitioner’s rights and to have them ruled upon their merits. No state or federal
court has protected the Petitioner’s right for review nor ruled upon their merit, due
to no fault of Petitioner. This Petition for Writ of Habeas Corpus follows.
GROUND ONE
THE SIXTH JUDICIAL CIRCUIT OF PINELLAS COUNTY,
FLORIDA DENIED ALL CLAIMS OF INEFFECTIVE ASSISTANCE
OF
TRIAL
COUNSEL,
PROSECUTOR
MISCONDUCT,
CONSTITUTIONAL ERRORS, TRIAL COURT ERRORS AND
FAILING TO RULE ON THE MERITS OF THE CLAIMS, PLUS
THE U.S. DISTRICT COURT’S APPOINTED COUNSEL (CASE 92134 CIV-T) DENIED THE REVIEW OF VALID CONSTITUTIONAL
VIOLATIONS.
After direct appeal a Petition for Writ of Mandamus (App.3'5) was filed in the
Florida Supreme Court claiming an illegal sentence. The petition was dismissed
without ruling on the merits.

- Page 11 of 39-

While the above was pending, the first 3.850 pro se postconviction motion was
filed claiming ineffective assistance of counsel, prosecutor misconduct and trial
court errors. The 3.850 motion was denied by saying the issues were already
presented to the Florida Supreme Court and pursuant to Francois v. Klein. 413
So.2d 165 (Fla. 1983) the issues were barred. The Francois case was misapplied
because the only issue that was presented to the Florida Supreme Court was
sentencing. Not a single issue raised in the 3.850 was ever ruled on their merits in
State Courts. As a result, the Petitioner’s constitutional rights to due process was
violated and a manifest injustice occurred.
The Florida U.S. Middle District Court appointed counsel Matthew Evans
who then omitted all grounds found in the January 31, 1992 pro se petition for
habeas corpus. Because of Evans’ omission the Petitioner did not receive a full
review on the merits. The 5th, 6th, & 14th Amendments were denied as a result of
Evan’s abandoning claims. Even though the Petitioner personally wrote the District
and Eleventh Circuit Court, they refused to review any issue saying the Petitioner
was represented by Evans and neither court would hear the Petitioner’s plea for
review. Petitioner’s constitutional rights were denied.
GROUND TWO
PETITIONER WAS DENIED HIS DUE PROCESS AND FOURTH
AMENDMENT RIGHTS WHEN THE STATE WAS ALLOWED
WITHOUT OBJECTION TO USE EVIDENCE SEIZED THROUGH

- Page 12 of 39-

A WARRANTLESS SEARCH OF HIS PROPERTY, WHEN
PERMISSION FOR THE SEARCH WAS GIVEN ONLY BY HIS EXWIFE WHOSE DIVORCE BECAME FINAL ON 12 JUNE 1984
BEFORE PROPERTY WAS TAKEN.
STATEMENT OF FACTS
Trial counsel was ineffective when he failed to motion to suppress evidence
belonging only to the Petitioner which was seized by ex-wife without a search
warrant or without legal permission from the Petitioner after divorce was final.
Counsel allowed the State to introduce a tackle box, personal letters written
to Petitioner’s mother, deck of playing cards alleged by the ex-wife to be found
inside the fastened closed tackle box, and which box belonged to the Petitioner and
“NO ONE” had any authority to unlock or open.
After divorce was final, law enforcement and/or ex-wife’s attorney instructed
her to obtain the tackle box and bring the material to her attorney who gave it to
the prosecutor without having to legally obtain a search warrant. The use of the
material prejudiced the Petitioner violating his constitutional rights. Defense
counsels failure to suppress resulted in the jury viewing extremely prejudicial
evidence toward the Petitioner contributing to him being convicted.
The Prosecutor also failed to give proper notice to Defense required by rules
of discovery (R139). A Richardson hearing1 was required but not held.
Richardson v. State. 246 So. 2d 771 (Fla. 1971) .

- Page 13 of 39-

GROUND THREE
TRIAL COURT CREATED RULE RESULTING IN DENIAL OF
PETITIONER’S RIGHT TO A FAIR TRIAL.
STATEMENT OF FACTS
Before the trial started, the Court was informed that the State intended to
show other offenses not charged under evidence code § 90.404(2)(c). After discussing
the State’s intent and then not satisfying the statute, the judge stated:
“if there is any indication of prior activity, I’m going to declare a
mistrial and it’s going to be because of prosecutor misconduct”
(App.98-99). This rule permeated the entire trial. On several occasions during
examination of Brad Williams, the State introduced allegations of assaults that
were not charged (App. 174).
During cross examination of Brad Williams and M. Lehing, the Petitioner
asked his attorney to question each accuser about their sexual involvement with
each other during the same time periods that were charged. The defense attorney,
said he could not ask questions like that, it was not permitted. The effect of the rule
denied the Petitioner the ability to cross examine and to show the jury that M.
Lehing was the person committing all the crimes charged—not the Petitioner. The
jury could have been shown M. Lehing was sexually involved not only with Brad
Williams but also with S. Falzone, his sister, the Suger brothers, a Crowson boy and
R. Buckley, but because of the court’s rule defense was not allowed to show the jury

- Page 14 of 39-

that Petitioner was innocent.
Finally when the Petitioner took the stand as soon as he mentioned that Brad
Williams and M. Lehing were engaging in apparently a sex act in the Petitioner’s
presence, the Petitioner was not allowed to testify what Brad and Mike said on
February 12th, but was removed from the stand, nor given the ability to recall the
State’s key accusers for further questioning to prove his innocence.
When the Petitioner gave the date February 12th, 1984, which was outside all
charge dates, he was not allowed to tell the jury about M. Lehing and B. Williams
telling the Petitioner that they both had sucked each other and that Lehing had
learned to do it from his neighbors the Sugar brothers who were older.At that time
Lehing said he liked doing it, Petitioner told his attorney about the February
incident and other things Lehing had said. (R300-301, App. 170-171).
Lehing, if questioned, would have told of his sexual contact with; The Sugar
brothers, Crowson boy, Scott Falzone and Brad Williams. Counsel due to the court’s
rule did not question the State’s witnesses to establish a defense, nor did counsel
call Lehing’s sister and friends to show Lehing committed similar acts with them
and that he was accusing the Petitioner of committing the acts he enjoyed doing
himself. Examining the record will show that no one felt their activities were wrong.
As a result an innocent person was convicted. Petitioner’s constitutional
rights were denied by the judges rule and by counsel not protecting those rights for

- Page 15 of 39-

review. Defense counsel did not properly cross examine the accusers to establish a
defense because of the rule. Counsel did nothing to show that the Petitioner was
innocent of the charges thus withholding important information from the jury.

GROUND FOUR
TRIAL COUNSEL FAILED TO INVESTIGATE WITNESSES FOR
THE PETITIONER.
STATEMENT OF FACTS
Petitioner requested the following people to be questioned and investigated to
obtain evidence against Lehing being the one involved with sex acts and was the
person committing the offenses not the Petitioner:
Ms. Smites, Principle at Tarpon Springs
(1)
Fundamental School Teachers, and janitor at the school, about
Lehing’s involvement in the boys restroom.
(2)
Crowson boy, who lived next door to Lehing in Palm
Harbor, whom Lehing had told Petitioner he played with.
(3)
Sugar brothers, who Lehing had told the Petitioner
about having similar sex acts with and other sex acts that they had
been doing with him.
(4)
Lehing’s sister, who would have testified Lehing
had performed similar acts with her.
(5)
Scott Falzone’s neighbor who
similar acts, which he indicated they did in the pool.

had performed

(6)
Ryan Buckley’s neighbor and friend and a Eddie
Lake (a fellow student of Lehing’s).

■ Page 16 of 39-

Lannon brothers who lived near Petitioner would
have provided character witness testimony. But because the ex-wife
learned they were to testify, the ex caused their mother to disallowed
them.
(7)

(8)
Tom Crane the friend of B. Williams found in
garage looking at sexual in nature magazines with accuser would have
testified about B. Williams’ intent of looking at magazine, they found,
plus questioning Crane to gain defense information.
These witnesses would have presented valuable evidence to prove that Petitioner
was innocent and that Lehing was the one performing sex acts charged to the
Petitioner.
GROUND FIVE
TRIAL COUNSEL, PROSECUTOR AND TRIAL JUDGE DENIED
PETITIONER’S RIGHTS BY ALLOWING DIRECT LEADING
QUESTIONS, ALLOWING A CONVICTION WHEN THERE IS NO
SCIENTIFIC OR PHYSICAL EVIDENCE NO PROOF OF ANY
OFFENSE AND NO ADMITTANCE.
STATEMENT OF FACTS
The Prosecutor throughout the trial used direct leading questions to establish
crucial dates, times, places, events and matters to meet the legal requirements of
the law without objection freely leading each witness on direct. Plus, throughout the
trial, the Prosecutor repeatedly stated the charges over and over to reinforce the
repulsiveness of the jurors feelings in order to gain a conviction. The judge allowed
these constitutional violations to occur without corrections when counsel failed to

- Page 17 of 39-

object. (App. 100-132, 135, 138-139, 144-154, 158).
There was no scientific factual evidence of any kind. No eye witnesses present
other than the accuser’s and not one testified to anything being done upon others
even though they were there. On cross Ryan Buckley’s allegation was made a “FEW
MONTHS” before trial, but he had waited to speak to his mom alleging the movie
incident, (App. 116). Ryan’s and Brad’s stories about the movie incident do not
match.
Brad on cross says Lehing was present on the boat when the acts happened to
him but Lehing says he didn’t see anything. Lehing alleges when he was involved
that things occurred to him while Brad was there but (App. 142-143). Brad said he
saw nothing. Lehing said he did not see anything being done to anyone.
As early as Moses the law of justice required two or three witnesses before
anyone could be convicted of a crime2. Our forefathers created the constitution
based on the teaching found in the Holy Bible. But when it comes trial an allegation
made by just one accuser without any witnesses is permitted even when there are
others present at the scene who testify they did not see any offense committed upon
anybody. The record shows at least two other accusers were present who testified
they did not see any crime being committed upon another and yet the trial judge
allowed an innocent man to be convicted against his rights established in the
Deuteronomy 19:15.

- Page 18 of 39-

United States Constitution. Only this Court can correct the manifest injustice found
in this case.
There was no physical examinations taken from the boat or anyone to show
any alleged force or any harm, or to prove any allegation. There was absolutely no
proof of anyone being abused, or harmed, or a battery being committed. Simply
alleging a crime is not facts to support the offense occurred. The Petitioner should
be acquitted.
Finally there is no admittance from the Petitioner. In retaliation the
frustrated Prosecutor throughout the trial poisoned the jury by diligently stating
the allegations over and over plus he alleged others were involved that were not a
part of the charges, nor were they present or mentioned in discovery and repeatedly
violated the Court’s rule. During trial the prosecutor without objection or correction
by judge alleged the following prejudicial and harmful statements^
a)
The Petitioner was abusing other little boys at IBM. A most
derogatory allegation, inflaming the jury’s mind, prejudging Petitioner to a
fair trial, (App.162).

b)
There was a lot more incidents involved. This violated the
judge’s rule. This was again without any evidence, and prejudiced the
Petitioner. (App.159-160).
c)
That another school mate of the accusers named Scott Berry
(not a witness) ”if he claimed you abused him he would be lying”. This
violated the judge’s rule and prejudiced the Petitioner. (App. 168).
d)

When the Prosecutor asked the Petitioner if the dates are a

- Page 19 of 39-

mistake was prejudicial, (App.163, 166).
e)

When the Petitioner was asked if he had ever told anyone that
he had been involved in a homosexual act was prejudicial and violated the
judge’s rule. (App.167).

t

When the Prosecutor continuously used allegations without
evidence like “little boys at IBM”, “weiner”, “suck”, “stick into huts”,
throughout trial was highly prejudicial. None of these allegations was
supported by proof and it violated the judge’s rule, and a fair trial. (App.136,
137 138, 140-141, 144-146, 148, 155-156, 157, 161 162, 168-169, 173, 175).
After the Petitioner was removed from testifying, Prosecutor
g)
told the jury that the accusers were “going to tell the whole story this time”
was highly prejudicial in leading the jury to believe that they had not heard
the truth or complete facts. (App.172)
h)
When the Prosecutor continually gave his interpretations as to
intent, beliefs and feelings which tainted the jurors minds was prejudicial.

i)

The Prosecutor’s attitude was “them is the breaks”, referring to
his prejudicial remarks. (App.134).

j)

The prosecutor went far beyond the scope of the charges.

Trial counsel failed to have a doctor examine each accuser both physically
and psychologically after the Petitioner asked him to do so but he refused. A medical
doctor would have discovered each accuser had not been abused thus falsely
accusing the Petitioner. Counsel told the Petitioner prior to trial, that the
Prosecutor asks if the Petitioner would take a lie detector test and the Petitioner
replied he would if the accusers would also. The State refused the offer.
There is no evidence or facts to prove any of the charges. When Scott Falzone

- Page 20 of 39-

was questioned during direct he did not testify to any offense as charged regarding
his second time on the boat (App.148). Petitioner was charged, convicted and
sentenced when no crime was alleged or committed according to the accuser.
Trial counsel failed to acquire expert examiners to show the jury that leading
questions were extremely prejudicial and they would taint the jurors mind as well
as they were used to program the State’s witnesses into saying things happened to
them but didn’t. Nationally known experts: Doctors Gardner, Raskin, Dent and
Melton, anyone of whom, would have testified regarding the use of leading
questions being the common practice used when questioning alleged victims before
trial and leading them during trial which was extremely harmful toward the
*

Petitioner especially when a divorce was in progress prior to trial. These experts
were necessary to show the jury how much influence improper questioning plays on
the minds of accusers.
Florida Statutes § 90.612 provides protection to the Petitioner regarding the
use of leading questions on direct. But defense counsel and the trial judge ignored
the law, allowing an illegal conviction. This case is a prime example of malicious
prosecution.
GROUND SIX
PROSECUTOR
MISCONDUCT
OCCURRED
WHEN
HE
INTENTIONALLY INTRODUCED SIMILAR FACT EVIDENCE
THAT PETITIONER WAS NOT CHARGED WITH BY

• Page 21 of 39-

INDICTMENT OR INFORMATION AND THE TRIAL COURT
ERRORED WHEN THE JUDGE FAILED TO DECLARE A
MISTRIAL FOR VIOLATING HIS RULE BY THE PROSECUTOR.
JUDGE FEDERICO SHOWED BIAS TOWARD PETITIONER BY
NOT ENFORCING HIS RULE. (APP. 98-99).
STATEMENT OF FACTS
On more than one occasion the State was allowed to introduce testimony of
past activity by soliciting Detective Walker during examination about the accusers
telling her of other acts done other than those charged (App.159). Testimony from a
law enforcement officer was heresay, highly prejudicial toward the Petitioner since
there was no proof the allegations happened and she was no eye witness to support
any claim.
Even for one instance of violating the rule created by judge (App.98-99) and
especially since defense counsel’s motion for acquittal, the judge was obligated to
declare an acquittal according to the plain language of his rule and the fact it was
clearly violated by the officer. The State deliberately violated the rule many times,
in order to taint the jury’s mind. The judge knowingly violated Petitioner’s rights by
not declaring a mistrial and again when he failed to grant the Petitioner’s motion
for judgment of acquittal, convicting an innocent man.
GROUND SEVEN
TRIAL COUNSEL FAILED TO STRIKE AT LEAST FOUR BIAS
JURY
MEMBERS.
HIS
INEFFECTIVENESS
DENIED
PETITIONER’S CONSTITUTIONAL RIGHTS TO AN IMPARTIAL

- Page 22 of 39-

JURY.
STATEMENT OF FACTS
Trial counsel was ineffective for failing to strike jury members for being bias.
The Court asked each potential jury member if there was anyone who felt they
could not give this case their fair and impartial treatment. Everyone of the
following responded negatively (App. 177-178) Each juror stated:
SELECTED JURY MEMBERS
1.

Ruth Mitton:
Sat on a criminal jury previously, would try to
be impartial, worked for an attorney (App.201, 205, 209)

2.

J. Steven Roberts: Cannot be fair & impartial, can not follow the
law, “Should be castrated” (App. 179-180, 196)

3.

Norma Bown:

4.

Elaine Long: Has three boys all would tell her, not holding back
(App. 187)

5.

David McBane:
(App. 187)

6.

Alice G. Ryan:
Never heard anything like this charge,
shocked (App. 191)

Molested at foster home (App.186)

Has boys, all would tell him, not holding back

7.
Robert Sheehan: Does not like being on jury and had a friend
who was charged with molestation (App.206-207)
PROSPECTIVE JURORS
8.

Robert Cater:
Friend is a police officer. Has three boys,
would tell him if they had such experience. Could not be fair or
impartial. (App. 189-190)

- Page 23 of 39-

9.

Agnes BedellCould not be fair or impartial, nature of
charge, does not want to be a juror and husband is retired cop. ,
(App. 192, 198)

10.

Rose Goodloe:
Works in psychiatric unit and wants to be on
the jury. (App. 193-194)

11.

June Schreck:
Could not follow the law and not be fair and
impartial. (App. 180)

12.

Cathleen Hunt:
Knows this crime happens and not be fair
and impartial. (App. 194)

13.

Joann Love: Has four boys the oldest was molested and told her
immediately and could not be fair and impartial. (App. 195)

14.

Nancy O’Leary:

15.

Victoria Crafa:
Could not be fair or impartial and has strong
feelings works with prisoners. (App. 181)

16.

James Pierson:
Has thirteen year old son and could not be
fair or impartial charges are disgusting. (App. 182)

17.

Lorraine Douglas: After hearing charges, could not be fair or
impartial, has strong feelings.(App. 182-183)

18.

Armin Schuette: Could not be fair or impartial and would not
respond to questions. (App. 176)

19.

Doug Casey: Could not be fair or impartial and had homosexual
incounter. (App. 184-185)

20.

Cheryl Sluppy:
Could not be fair or impartial and children do
not lie. Teacher has strong feelings about charges. (App. 200)

21.

Steve Chesley:

Does not like being on jury. (App. 188)

Does not want to be on jury and Defendant

- Page 24 of 39-

deserves the chair. Could not be fair or impartial and does not
believe an 11 year old would lie. (App. 202-203)
22.

Andrew Regetz:
Deserves the chair and had homosexual
encounter. Could not be fair or impartial. (App. 199, 203)

23.

Lorraine Regina: Could not be fair or impartial and does not
want to be a juror. (App. 204)

24.

Sally Boyd: Defendant looks familiar and could not be fair or
impartial. (App. 208)

25.

John Colley: Would have problems with length of trial and could
not be fair or impartial. (App. 197)

26.

Amos Jackson:
Has five kids and could not be fair or
impartial. (App. 179)

Jury only included whites. Blacks and oriental races were deliberately removed by
prosecutor, denying the Petitioner to a fair mixture of the county population and to
a fair trial.
GROUND EIGHT
TRIAL COUNSEL WAS INEFFECTIVE WHEN HE FAILED TO
OBJECT OR FILE A MOTION FOR MISTRIAL WHEN THE
WITNESS WAS ALLOWED TO INTRODUCE TESTIMONY OF
ALLEGED PAST CRIMINAL ACTS CONTRARY TO LAW, OUTSIDE
CHARGE DATES AND VIOLATING JUDGES RULE.
STATEMENT OF FACTS
Counsel failed to object or preserve for appeal that the State witness in
alleging prior acts was contrary to law, the State did not give notice of their intent
to introduce similar fact evidence as required by law.

- Page 25 of 39-

During the trial, Detective Walker was allowed to introduce activity by the
alleged victims that were not charged.
The ex-wife of the Petitioner, an illegal witness alleged the Petitioner had
participated in a homosexual sex act when he was a teenager before she knew him
and over fourteen years before she met him in 1970, when she lived in New York
and he in Florida.
Alleged acts were, prejudicial, unproven, irrelevant and outside any charged
dates. Furthermore, all were denied by Petitioner as ever happening. Testimonies
were deliberately used to taint the jury’s mind into believing they were true and
sufficient to prove the alleged charges beyond a reasonable doubt. The Petitioner’s
right to a fair trial was violated.
GROUND NINE
TRIAL COUNSEL WAS INEFFECTIVE FOR FAILING TO OBJECT
AND TO FILE A MOTION TO DISCHARGE PETITIONER’S EXWIFE, AN INTERESTED AND ILLEGAL STATE WITNESS.
STATEMENT OF FACTS
The ex-wife who recently had obtained a divorce. (3 months prior to trial) was
working diligently with the assistance of her divorce attorney, Detective Walker and
Prosecutor to obtain a conviction so that she would receive all property and full
custody of their two children. She had a special interest, She even traveled from
Florida to Athens, Georgia to obtain a personal letter without a court order that the

- Page 26 of 39-

Petitioner had written his elderly mother. She delivered the letter to the Prosecutor
who used it in the trial, violating Petitioner’s rights.
The ex-wife’s testimony was outside all charged dates, not a eye witness, she
had no knowledge of any facts, her testimony was hearsay and used to taint the
juror’s minds.
The ex-wife also tampered with a sex ad addressed to her, an exhibit
presented at trial. She removed the label and alleged the ad belonged to the
Petitioner.
'

The ex-wife alleged our son, when she drove into the driveway surprising

him, placed one or more sexual magazines3 inside the Petitioner’s locked tackle box.
She then delivered the tackle box to the State for use in the trial denying
Petitioner’s rights. There was no search warrant, tackle box was illegally entered.
When the ex-wife testified she caught our son with a friend of his, Tom Crane,
viewing girly magazines, a deck of nudist playing cards and sex ads, which trial
counsel knew about but did not even investigate Tom Crane or call him to testify to
the facts thus denying Petitioner’s ability to impeach one or more accusers and the
ex-wife. Ownership of these items was never proven.
Counsel’s representation fell below the required standard for effective
assistance of counsel. The ex-wife was an illegal witness and none of her testimony

These magazines can be purchased at a local grocery store.

- Page 27 of 39-

should have been heard by the jury, thus denying a fair and impartial trial.

GROUND TEN
(A) TRIAL COUNSEL DENIED PETITIONERS RIGHT BY NOT
PRESERVING ISSUES FOR APPEAL; (B) PROSECUTOR
VIOLATED PETITIONER’S RIGHTS CONCERNING DISCOVERY;
(C) TRIAL COURT DENIED PETITIONER’S RIGHTS TO RECEIVE
AN ACQUITTAL; (D) PROSECUTOR USING NO SPECIFIC DATE
PREJUDICED AND HINDERED DEFENSE; AND THE USE OF A
FLORIDA ROAD MAP MISLEAD JURY
STATEMENT OF FACTS
Trial counsel failed to suppress and preserve for appeal several items that
were shown the jury where the prosecutor violated discovery: photo of a man,
alleged to be ex-wife’s uncle, sitting on a boat: road map used as pin point
navigational locations: tackle box obtained illegally (ex-wife brought to court:
personal letters obtained illegally: and when the State alleged a time frame of
several days, up to weeks and months for one alleged incident hindered and
prejudiced defense.
The State using a regular road map to have the witnesses point to where the
alleged crime took place into Gulf of Mexico. Counsel failed to object instead of
requiring a Certified Navigational Chart.
The Petitioner is convicted of alleged sexual acts that occurred SEVERAL
MILES off the coast. The boat was in international waters in which FLORIDA

- Page 28 of 39-

COURTS HAD NO JURISDICTION to prosecute.
According to federal law, a person is in international waters after they are
more a few miles shore. The accusers pointed to an area on the road map that was
over the limit. The alleged crime scene would have been in federal jurisdiction not
state, using official charts. JUSTICE demands that the conviction be vacated.
The Petitioner ASKED his attorney to call witnesses who could have testified
to the location of the fishing area where the alleged crime was suppose to have
occurred: Joseph Hohl (father-in law), Ed Fisher (from work), Steve and his son
(from work), and Bob Proctor (from work), would have testified that the fishing
area was several miles off the coast of Florida.
Had counsel called these witnesses, he could have impeached the State’s
main witnesses and proven that the State did not have jurisdiction and that using a
road map to show a position in the Gulf of Mexico was extremely misleading tthe
jury.

Using a state road map to point a special location in water is an inaccurate
illustration to describe a distance from shore was prejudicial. Nautical miles are
substantially different from land miles. The jury was mislead due to the road map.
Had counsel motioned the court to use a nautical chart the area described by each
accuser would have placed the alleged area in federal waters where the State and
Pinellas County had no jurisdiction to prosecute. The State relied upon the map to

- Page 29 of 39-

make the alleged crime scene appear within the state boundary. The jury was
mislead into believing the alleged crimes occurred in Pinellas County.
Trial counsel knew there were several defense witnesses who that were
willing to testify as to the location where fishing trips took place.
On cross, not even one accuser could give a date when an alleged offense took
place. The prosecutor always gave a range of dates in direct leading questions
suggesting to the witness the time frame specified in the charge. When it came time
for cross exam not a single accuser could stand by any time frame. The accuser’s
dates ranged from 10, 15, 27, 30 and 51 days with no single date specified. The
accuser’s became confused on what month and year on cross examination. Reversal
was required by the court, a date is required by law. The State has the burden of
proving the act occurred on the specific date. The State’s failure to produce
sufficient evidence to prove all elements charged should produce a direct verdict of
acquittal. Use of direct leading questions further violated Petitioner’s constitutional
rights requiring acquittal.
A date must be specified, a range hinders defense is prejudicial and
unconstitutional. Range of dates given by the State does not fully advise the
Petitioner of the nature or to prepare defense. The indictment and all charging
documents as well as the prosecutor’s leading questions containing the ranges of
dates were unconstitutional, seriously violating Petitioner’s rights to a fair trial

■ Page 30 of 39-

plus it misled the jury.
GROUND ELEVEN
TRIAL COUNSEL WAS INEFFECTIVE FOR FAILURE TO
CHALLENGE THE QUALIFICATIONS OF THE STATES EXPERT
WITNESSES.
STATEMENT OF FACTS
The State called policeman Holt who testified of his personal encounters,
outside of his legal jurisdiction, with nudist and homosexuals on Honeymoon Island.
Officer Holt also gave his opinion as to why the accusers delayed over a year to
come forward. He was also allowed to express his experiences that were totally nonrelated to the case. This witness was prejudicial, not an eyewitness, knew nothing
about the case and violated Petitioner’s constitutional rights.
Detective Walker stated she did not have professional training regarding the
charges nor could she offer any valuable evidence to prove any crime occurred on
any given date. She was not an eyewitness and she was not qualified as an expert,
regarding the truthfulness of a witness.
Neither Officer Holt nor Detective Walker had any facts or direct knowledge
of the alleged crimes. Trial counsel failed to suppress and preserve for appeal their
testimony,' they were used to further taint the jury into believing the Petitioner was
guilty based upon sexual activities that occurred in other areas of Pinellas County,
that were unrelated.

■ Page 31 of 39-

By counsel not objecting and removing these witnesses, his performance fell
below the required standard and allowed the jury to hear testimony that invaded
their providence of fact finder and to hear highly prejudicial statements violating
Petitioner’s rights.
GROUND TWELVE
TRIAL COUNSEL WAS INEFFECTIVE DENYING PETITIONER’S
RIGHTS TO SEPARATE TRIALS.
STATEMENT OF FACTS
The Petitioner was charged with nine (9) separate offenses, alleged to have
occurred on separate time frames without any specific date among four different
accusers all of which were present at each alleged offense. The Petitioner requested
counsel for separate trials for each accuser. Counsel refused saying Petitioner did
not have sufficient funds to pay for four trials.
The Petitioner was highly prejudiced from receiving a fair trial because the
State was allowed to use allegations and testimonies pertaining to one range or
time frame or one incident for all charges. The jury could not differentiate between
each charge by having a range of dates rather than a single date between the
charges specified in the charging document. The charges did not have any
connection with each other; they did not apply to another. Each accuser’s allegation
had a different time frame. Combining all charges into one trial benefitted the State

■ Page 32 of 39-

and increased the risk of a conviction. From the beginning once the juror’s heard
the allegations they were poisoned. The jury was also influenced by the prosecutor
repeating the alleged charges throughout the trial.

Comments during voir dire

show repulsive feelings even before any of the unsupported and unproven
allegations are made.The jury was repeatedly fed words such as suck, wiener, stick
into butt, ETC., and by the Prosecutor continually citing the nine offenses caused
the jury to be convinced the Petitioner was guilty simply by the allegations, not by
any facts or proof of any offense for there isn’t any.
The innocent Petitioner was convicted by the combination of all charges into
one trial due to ineffective assistance of counsel.
Dates given by accusers differed from statement of particulars. The only way
the State could keep control was using direct leading questions denying a fair trial.
GROUND THIRTEEN
TRIAL JUDGE DENIED PETITIONERS DUE PROCESS RIGHTS
BY DENYING ACCESS TO CRUCIAL INFORMATION, THE
ABILITY TO CHALLENGE GRAND JURY, DISCOVERY DATA
AND DETECTIVE INTERVIEW RECORDINGS FOR DEFENSE
PURPOSES.
STATEMENT OF FACTS
The Petitioner was arrested on 4/2/1984. The grand jury was qualified on
5/8/1984 and indictments issued 6/19/1984. The grand jury was selected without
any prior notice to allow the Petitioner the ability to challenge their qualifications.

■ Page 33 of 39-

Defense counsel filed a motion to challenge proceedings and for disclosure of
testimonies, judge denied. It was the court’s duty to allow the Petitioner access to
all testimony which any accuser provided in any phase of the trial.
Even the interviews the detective’s conducted, any recordings were a part of
discovery and were required to be turned over to the defense, but they were not.
The Petitioner’s due process and equal protection rights were seriously
violated by these errors.
GROUND FOURTEEN
TRIAL COURT DENIED THE PETITIONER’S DUE PROCESS
AND HIS CONSTITUTIONAL RIGHT TO HAVE ALL ISSUES
APPEARING IN POSTCONVICTION MOTIONS TO BE RULED
ON THE MERITS.
STATEMENT OF FACTS
The Petitioner filed several postconviction motions, including petitioning the
Florida Supreme Court.
After direct appeal, the Petitioner filed a petition for writ of mandamus in the
Florida Supreme Court, (App. 3-5). Examining this petition will show it only
contained illegal sentencing issues, nothing was raised regarding ineffective
assistance of counsel, prosecutor errors or trial court errors as claimed by the trial
court. While the mandamus was pending, a postconviction motion was filed. The
trial court claimed procedural default denying postconviction. The Florida Supreme

- Page 34 of 39-

Court dismissed the Petition for Writ of Mandamus when the State claimed the
rule 3.850 had been filed. The denial of Petitoner’s 3.850 claims and facts without
any review on the merits seriously violated a legal right to a review causing
manifest injustice against the Petitioner.
All state and federal courts have refused to rule on the merits of the claims.
Petitioner’s due process, equal protection, access to courts and right not to be
treated in a cruel manner under his 5th, 6th, 8th and 14th Amendment rights have
been denied resulting in a miscarriage of justice in that an innocent man was
illegally convicted for a crime he did not commit. The trial court failed to appoint
counsel to overcome this constitutional violation.
GROUND FIFTHTEEN
THE PETITIONER IS FACTUALLY AND LEGALLY INNOCENT
REQUIRING ACQUITTAL AS REQUIRED BY HIS RIGHTS
PROVIDED BY THE 4th, 5th, 6th, 8th AND 14th AMENDMENTS OF
THE U.S. CONSTITUTION WHICH HAVE BEEN VIOLATED.
STATEMENT OF FACTS
The Petitioner alleges this case is FULL OF constitutional violations
**,

requiring an acquittal.
The prosecutor did not present any eye witness to any offense or physical
evidence, nor any facts to support any crime was committed. There were no
witnesses other than another accuser being present and they testified they saw

-Page 35 of 39*

nothing. There was no admission by the Petitioner. Only through direct leading
questions is any portion of the alleged charges shown. Without the accusers replies
to the direct leading questions there is insufficient evidence to support any crime
occurred. An allegation is not proof, and that is all that exist. It must be noted that
the boat wasn’t a yacht but only a twenty-three foot fishing boat with lots of open
space.
The ends of justice require at the very least that this Petitioner receive a fair
trial and an impartial postconviction proceeding which he has NEVER RECEIVED
in any state or federal court regarding these constitutional violation. The Petitioner
is factually and legally innocent of these charges. Herrera v. Collins. 506 U.S. 390
(1993).
All the Petitioner ask is a ruling on the merits of each ground and for the
Respondent to show where there is absolute proof to support a conviction.
GROUND SIXTEEN
CONSIDERING THE CUMULATIVE EFFECTS OF THE
CONSTITUTIONAL VIOLATIONS IS SUFFICIENT EVIDENCE TO
RENDER AN ACQUITTAL.
STATEMENT OF FACTS
The cumulative effect of the errors shown herein are substantial causing a
deficiency that is obvious and affected the fairness and integrity of the trial, and
constitutes an acquittal. The trial court was obligated to protect Petitioner’s

- Page 36 of 39-

constitutional rights in all areas. The State did not make out its case with proof or
sufficient evidence to support the allegations. Allegations cannot be made to prove
or support an allegation. There must be proof and factual evidence because
allegations alone are not proof.
When the trial judge alone, without any input or agreement from the jury,
gave a sentence totaling 225 years with 75 years minimal mandatory thus
overriding the 20 year scoresheet for all nine offenses with no mandatory was a
denial of trial by jury. At least, the signed scoresheet (App. 19) should have been
approved by the jury, for them (not the judge) to consider a lessor sentence.
Instead the judge took it upon himself without any jury and gave the exact
same sentence that is given for first degree murder. The problem being the
murderer obtains a 12 person jury but the sexual battery offender only gets six.
Violating Petitioner’s equal and protected rights.
To add more injury, Florida Department of Corrections does not credit any
good time or work credits against the presumed release date because of the 75 years
minimum mandatory, further causing a denial of the Petitioner’s constitutional
rights. As of the filing Petitioner has served thirty-five years and through March
2019 has forty one years six months incentive and work gaintime. The problem is
the time served, Work gaintime and incentive gaintime is not applied to any release
date (presently set at 99/98/9999). The Petitioner was 77 years old last 1/6/2019.

- Page 37 of 39-

Without this courts review and resolution he has no chance of ever being released to
see his loved ones again.
CONCLUSION
With no factual evidence, no confessions, no eye witnesses and no scientific
evidense, this case is a prime example of malicious prosecution and a miscarriage of
justice. In conclusion the Petitioner states that based on the above facts and
arguments, this Honorable Court should vacate the Petitioner’s conviction and
sentence and order the Department of Corrections to immediately release, and
grant any further relief it deems just and proper.
CERTIFICATE OF COMPLAINCE
TO WORD COUNT
I, Thomas F. Williams, do swear or declare that the word count for this
document is 8502 as counted by the word processor that I am using to complete the
Habeas Corpus in booklet format. The program that I am using is: “OpenOffice 4,
Text Document”.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this
Respectfully submitted:
/s/
Thomas F. Williams #095608
Union Correctional Institution
P.O. Box 1000
(

■ Page 38 of 39-

Raiford, Florida 32083
Petitioner pro se
PROOF OF SERVICE
I, Thomas F. Williams, do swear or declare that on this date, / D

day of

2019, as required by Supreme Court Rule 29 I have served the enclosed
PETITION FOR WIT OF HABEAS CORPUS with APPENDIX on each party to the
above proceeding or that parties counsel, and on every other person required to be
served, by depositing an envelope containing the above documents in the United
States mail properly addressed to each of them and with first-class postage prepaid,
or by delivery to a third-party commercial carrier for delivery within three calender
days. The names and addresses of those served are as follows^ Ashley Moody,
Attorney General, The Capitol, PL-01, Tallahassee, Florida 32399*1050; Mark S.
Inch, Secretary, c/o- General Counsel, Department of Corrections, 501 South,
Calhoun Street, Tallahassee, Florida 32399-2500; and CLERK OF COURT,
U.S.Supreme Court, One First Street, N.E., Washington, DC 20543
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this /day of

, 2019.

/s/
Thomas F. Williams #095608
Petitioner pro se

- Page 39 of 39*

Additional material
from this filing is
available in the
Clerk's Office.

